Washington, D.C. 20530

October 13, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Ethan Guillen v. United States of America,
S.Ct. No. 21-5795

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September 23,
2021, and placed on the docket on September 27, 2021. The government’s response is due on
October 27, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time to and
including November 26, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which was
delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.
Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

21-5795
GUILLEN, ETHAN
USA

STACEY E. KUSHLEFSKY
WILLKIE FARR & GALLAGHER LLP
787 SEVENTH AVENUE
NEW YORK, NY 10019-6099
212-728-8621
SKUSHLEFSKY@WILLKIE.COM
212-728-9621(Fax)
MELISSA AYN MORRIS
OFFICE OF THE FEDERAL PUBLIC DEFENDER
111 LOMAS BLVD. NW
ALBUQUERQUE, NM 87102

